<html>
<title> - SECURING THE NATIONAL CAPITAL REGION: AN EXAMINATION OF THE NCR'S STRATEGIC PLAN</title>
<body><pre>[Senate Hearing 109-943]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-943
 
   SECURING THE NATIONAL CAPITAL REGION: AN EXAMINATION OF THE NCR'S 
                             STRATEGIC PLAN
=======================================================================



                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                 THE FEDERAL WORKFORCE AND THE DISTRICT
                        OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2006

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                     U.S. GOVERNMENT PRINTING OFFICE

30-603 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

                   Brandon L. Milhorn, Staff Director
             Michael L. Alexander, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk


   OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                  GEORGE V. VOINOVICH, Ohio, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
eNORM COLEMAN, Minnesota              CARL LEVIN, Michigan
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

                   Andrew Richardson, Staff Director
              Richard J. Kessler, Minority Staff Director
            Nanci E. Langley, Minority Deputy Staff Director
                      Emily Marthaler, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Akaka................................................     3

                               WITNESSES
                      Thursday, September 28, 2006

Anthony H. Griffin, County Executive, Fairfax County, Virginia, 
  and Chairman, Chief Administrative Officers Committee, 
  Washington Metropolitan Council of Governments.................     4
Edward D. Reiskin, Deputy Mayor for Public Safety and Justice, 
  District of Columbia...........................................     6
Hon. Robert P. Crouch, Jr., Assistant to the Governor for 
  Commonwealth Preparedness, Commonwealth of Virginia............     8
Hon. Dennis R. Schrader, Director of the Governor's Office of 
  Homeland Security, State of Maryland...........................    10
Thomas Lockwood, Director, Office of National Capital Region 
  Coordination, U.S. Department of Homeland Security.............    11
William O. Jenkins, Jr., Director Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................    13

                     Alphabetical List of Witnesses

Crouch, Hon. Robert P., Jr.:
    Testimony....................................................     8
    Joint prepared statement with attachments....................    34
Jenkins, William O., Jr.:
    Testimony....................................................    13
    Prepared statement...........................................   208
Griffin, Anthony H.:
    Testimony....................................................     4
    Prepared statement...........................................    29
Lockwood, Thomas:
    Testimony....................................................    11
    Prepared statement...........................................   204
Reiskin, Edward D.:
    Testimony....................................................     6
    Joint prepared statement with attachments....................    34
Schrader, Hon. Dennis R.:
    Testimony....................................................    10
    Joint prepared statement with attachments....................    34

                                APPENDIX

Joint Responses to Questions for the Record from Mr. Reiskin, Mr. 
  Crouch, Jr., and Dennis R. Schrader............................   233
Responses to Questions for the Record from Mr. Lockwood..........   239
Responses to Questions for the Record from Mr. Jenkins, Jr.......   240


                 SECURING THE NATIONAL CAPITAL REGION:



                      AN EXAMINATION OF THE NCR'S



                             STRATEGIC PLAN

                              ----------                              


                      THURSDAY, SEPTEMBER 28, 2006

                                   U.S. Senate,    
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                             Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich and Akaka.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. The Subcommittee will come to order. 
Good morning. We have quite a panel here in front of us, 
Senator Akaka.
    We want to thank you for joining us. Today the Subcommittee 
on the Oversight of Government Management, the Federal 
Workforce, and the District of Columbia meets for the third 
time this Congress to examine the collective ability of the 
governments and responsible authorities of the National Capital 
Region (NCR), to respond to a terrorist attack or natural 
disaster.
    The National Capital Region is the seat of the Federal 
Government and, as the symbol of freedom in the world, remains 
a prime target for a terrorist attack. At the same time, the 
record-breaking rains the region experienced in June, which 
closed down streets all over the region, disabled parts of the 
Metro system, and closed Federal buildings, demonstrated that 
we must be prepared to respond to all hazards.
    In June 2004, GAO released a report which recommended that 
the Office of the National Capital Region Coordination within 
the Department of Homeland Security work with local 
jurisdictions to develop a coordinated strategic plan to 
establish goals and priorities, monitor the plan's 
implementation, and identify and address gaps in the emergency 
preparedness. In addition, I believe that any strategic plan 
must include measurable performance goals.
    At our first Subcommittee hearing in July 2005, Mr. 
Lockwood testified that a final strategic plan would be 
released in September 2005. Although a year late, I am pleased 
to see that NCR has developed a strategic plan to prevent, 
protect, and respond to a terrorist attack or a natural 
disaster. I am also pleased to learn that it was a 
collaborative effort between all jurisdictions within the NCR. 
With a region that is comprised of many Federal, State, and 
local jurisdictions all playing a part in decisionmaking, it 
certainly makes the job more difficult. I understand how 
difficult it can be. As a former mayor and county commissioner, 
getting people together in Cuyahoga County was no easy task.
    I understand the importance of both State and local 
officials collaboratively working together toward a unified 
goal. Mr. Lockwood, I look forward to hearing how you 
coordinated Federal, State, and local officials to complete the 
plan.
    I am also pleased to learn that NCR worked with the 
Government Accountability Office to develop this strategic 
plan. I encourage all of you to continue this relationship as 
the plan matures over time. Mr. Jenkins, I am interested in 
learning GAO's assessment of the strategic plan and the role of 
your agency in the process.
    I am also interested in examining specific capabilities and 
programs in the NCR. Based upon the last Subcommittee hearing 
on the NCR, it was not clear if the region had an effective, 
interoperable communications system. Earlier this month, my 
Subcommittee staff attended an NCR interoperable communications 
exercise, the purpose of which was to demonstrate voice 
communication capabilities across the region. I understand that 
the exercise was a success. I am pleased to know that NCR is 
able to communicate in a time of crisis.
    I am interested in hearing from our panel how the NCR plans 
to enhance interoperable communications in a region to include 
data interoperability. I am particularly interested in it 
because Ohio is a leader in interoperability communications 
systems. They are now working on data interoperability.
    Since September 11, 2001, the NCR has received significant 
resources for equipment, training, planning, and other 
preparedness efforts. At the last hearing, we discussed the 
development of a web-based tracking program to manage and 
monitor the region's Urban Area Security Initiative (UASI) 
grants. However, I still have concerns with the lack of 
information regarding non-UASI funding in the database as there 
is significant non-UASI funding flowing into the region. 
Without a central system to track all types of grants, I am 
concerned that it will make it difficult to priorities 
initiatives and lead to duplicative spending. I look forward to 
learning if the region plans to fully implement the 
recommendations of GAO to track all grant funding.
    Before concluding my remarks, I would like to again 
recognize the hard work and dedication of all the panelists 
today and the first responders in the region. I know the 
development of the strategic plan took a great deal of work 
from all of you and your staffs. Your work and dedication is 
vital to improving the safety of the NCR.
    We recently observed the 5-year anniversary of September 
11, 2001. The anniversary reminds all of us of the threat that 
still looms to the region and the need to be diligent in every 
aspect of securing the NCR. I offer whatever assistance I can 
to ensure that you have the necessary resources to get the job 
done, and I assure you that I will continue to monitor the 
progress in the region. It is very important to me, and I 
intend to stay on top of this, and so does Senator Akaka, in 
terms of our oversight responsibilities.
    I now yield to my good friend, Senator Akaka, who has just 
come off a very successful primary victory in his home State of 
Hawaii. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. It has 
been a pleasure working with you to pursue the completion of 
this NCR Strategic Plan. I want to commend you on your 
leadership of this oversight Subcommittee. We are fortunate 
that we have this ability to work together on these matters.
    Today, we convene the Subcommittee's third hearing on the 
security of the National Capital Region (NCR), and I want to 
welcome our witnesses back to the Subcommittee, and I want to 
tell you that, from what I can see, you have made tremendous 
progress.
    Completing a Homeland Security Strategic Plan for the NCR 
is a huge step forward. Bringing 14 State and local 
jurisdictions together and achieving consensus is not easy. 
However, in the case of the Nation's capital, it is necessary 
and I commend you for accomplishing this task.
    The final version of the strategic plan is a vast 
improvement upon the draft documents that preceded it. However, 
I have a few suggestions for improvement. The first is metrics. 
Many of the goals in the plan are hard to measure. The second 
is the timeline. Most of the target dates are in 2006, 2007, 
and 2008. A strategic plan should look beyond 2 years in the 
future. So I encourage you to treat the plan as a working 
document so it may be continually reviewed and updated.
    While the focus of today's hearing is the strategic plan, I 
also would like to address the issue of interoperability and 
the Urban Area Security Initiative (UASI) grants.
    The NCR has made great strides in the area of interoperable 
communications. Many have asked whether first responders in the 
NCR have the ability to communicate with each other in times of 
crisis. As our witnesses will tell us, the answer is yes.
    My staff attended a demonstration of the communications 
capability of the NCR jurisdictions in early September, and 
they listened as Prince George's County firefighters talked to 
their counterparts in Montgomery County, who talked to the D.C. 
Police. Press reports which State that Prince George's County 
is not interoperable with the rest of the NCR have 
oversimplified the issue. First responders from PG County can 
communicate with first responders in the rest of the NCR 
through a technical bridge, otherwise known as a patch, which 
takes minutes to apply. This region is far ahead of most parts 
of the country in terms of interoperability, which is an 
immensely difficult challenge. And, again, I am really praising 
you. You all deserve credit for that.
    An area of concern for me is this year's NCR and UASI grant 
is the UASI grant application. This region has access to 
unprecedented resources and expertise, including the Department 
of Homeland Security's (DHS) Office of National Capital Region 
Coordination, because it is the Nation's capital. So I was 
surprised to hear DHS say that the region's UASI application 
was lacking. I hope that next year it is risk and need, not 
paperwork, that determines the NCR's homeland security funding.
    In particular, I want to ensure that the DHS ONCRC is 
providing adequate assistance to the region given that Members 
of this Subcommittee worked to significantly increase the 
ONCRC's budget in fiscal year 2007.
    Again, I would like to commend the members of the NCR, both 
State and local officials, for what you have accomplished 
because your jobs are not easy. Many challenges lie ahead, and 
I urge you to continue on a path of cooperation and 
coordination as you have, and we look forward to still more 
progress. So thank you again.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Akaka.
    We do have an excellent panel today. Anthony Griffin is 
County Executive for Fairfax County. Ed Reiskin is Deputy Mayor 
for Public Safety and Justice for the District of Columbia. 
Hon. Robert Crouch is Assistant to the Governor for 
Commonwealth Preparedness for the State of Virginia. Hon. 
Dennis Schrader is the Director of Maryland's Governor's Office 
of Homeland Security. Thomas Lockwood is Director of the Office 
of National Capital Region Coordination at the Department of 
Homeland Security. And William Jenkins is Director of Homeland 
Security and Justice Issues at the Government Accountability 
Office.
    Gentlemen, it is a pleasure to see you again, and we look 
forward to your testimony. I would appreciate it if you would 
hold your comments to 5 minutes. Of course, you know that your 
full written statement will be entered into the record. It's 
the custom of this Subcommittee, if you will all stand, I will 
swear you in.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Mr. Griffin. I do.
    Mr. Reiskin. I do.
    Mr. Crouch. I do.
    Mr. Schrader. I do.
    Mr. Lockwood. I do.
    Mr. Jenkins. I do.
    Senator Voinovich. Mr. Griffin, we will start with you.

 TESTIMONY OF ANTHONY H. GRIFFIN,\1\ COUNTY EXECUTIVE, FAIRFAX 
 COUNTY, VIRGINIA, AND CHAIRMAN, CHIEF ADMINISTRATIVE OFFICERS 
   COMMITTEE, WASHINGTON METROPOLITAN COUNCIL OF GOVERNMENTS

    Mr. Griffin. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Griffin appears in the Appendix 
on page 29.
---------------------------------------------------------------------------
    Mr. Chairman and Ranking Member Akaka, thank you for the 
opportunity to speak to you on behalf of my fellow chief 
administrative officers in the National Capital Region on the 
role of local government in securing the National Capital 
Region.
    The chief administrative officers worked in close 
partnership with others in the region in developing the 
recently completed National Capital Region's Homeland Security 
Strategic Plan. It is a long-term, unified effort to improve an 
all-hazards approach across the region. This plan lays out our 
regionwide strategy for strengthening our capabilities across 
all phases of preparedness--prevention, protection, response, 
and recovery--to manage homeland security risks. It sets our 
course and provides a strategic approach for planning and 
decisionmaking.
    The all-hazards approach to preparedness means we need to 
weigh the likelihood and consequences of a broad array of 
threats. These include, but are not limited to, extremes in 
weather, industrial hazards, viral pathogens, and, of course, 
terrorism that can take many forms.
    Implementing the plan will be a complex process that will 
involve all of the National Capital Region's partners to 
include government as well as private and civic sectors. The 
NCR needs tangible programs that are aligned with the strategic 
plan. The region must allocate resources and find additional 
sources of funding to support these programs and must put in 
place oversight and accountability structures and processes. 
The Emergency Preparedness Council has assumed responsibility 
for implementing the strategic plan, and the chief 
administrative officers look forward to supporting them.
    Local governments continue to lead the way in emergency 
response. We generally operate the same on a day-to-day basis 
as we do during emergency situations. Therefore, if a terrorist 
attack were to happen in Fairfax County, Fairfax County would 
be in charge of the response. If an incident took place in 
Prince George's County, Prince George's County would lead the 
way.
    Local Emergency Operation Plans outline the areas of 
responsibility for local agencies when responding to disasters 
or large-scale emergency situations. These plans assign broad 
responsibilities for disaster mitigation, preparedness, 
response, and recovery to local government agencies and support 
organizations.
    All emergency responses begin at the local level; however, 
when a local jurisdiction determines that it no longer has 
adequate resources to manage the event, the locality can 
request assistance from other localities through the region's 
mutual aid network or declare an emergency and request 
assistance from the State. Once the State has been notified, it 
will provide assistance within its capability. If the State is 
unable to provide the requested assistance, the governor in 
turn will contact the President to request a declaration of 
emergency and Federal disaster assistance coordinated by FEMA.
    Should the region need military support, the Joint Force 
Headquarters-National Capital Region was established to plan 
and coordinate for homeland defense and civil support 
operations. This support would be coordinated through the 
Defense Coordinating Officer in the Joint Field office 
subsequent to a Presidential Disaster Declaration except in 
life-threatening situations where support would be provided 
immediately. We have continued to strengthen our homeland 
security collaboration with Major General Swan and the Joint 
Force Headquarters. We also coordinate with the U.S. Department 
of Homeland Security's Office of National Capital Region 
Coordination. Both of these Federal offices will help ensure a 
timely response by the Federal Government to requests for 
assistance.
    I am going to summarize my comments by focusing on the last 
page of my testimony.
    As critical as the UASI funding is to the NCR for 
enhancement of the region's ability to prevent and respond, I 
want to emphasize that the cost of response rests primarily 
with the local governments. In Fairfax County alone, funding in 
fiscal year 2007 dollars has been allocated to the following 
functions which account for the majority of our first 
responders: Police, $162.4 million; fire and rescue, $166.3 
million; sheriff, $38.6 million; Office of Emergency 
Management, $1.45 million; Health Department, $45 million; 911 
communications, $8.9 million--for a total of $422.65 million.
    Additionally, the county is currently building a Public 
Safety and Transportation Operations Center which will include 
facilities for the State Police and the Virginia Department of 
Transportation's regional traffic management system. The 
county's share is approximately $90 million. Given the county's 
investment in 36 fire stations, 9 police substations, and other 
supporting facilities, and our collaborative approach to 
response utilized through the emergency support functions, 
Fairfax County spends approximately half a billion dollars 
annually to give the county the capacity to respond to 
emergencies on an all-hazards basis.
    Our companion jurisdictions in the National Capital Region 
are funding comparable investments according to population and 
geographic size.
    In summary, local governments in the NCR are better 
prepared and more coordinated since September 11, 2001. Our 
ability to communicate and cooperate has been tested several 
times since with anthrax, snipers, hurricanes, and tropical 
storms. Valuable experience also was gained from sending local 
government teams to the Gulf Coast last year. We have made 
plans for pandemic flu and have completed the strategic plan. 
We have learned much, but know that we have much to do. We are, 
however, prepared to respond now and anytime in the future.
    Thank you.
    Senator Voinovich. Thank you very much. Mr. Reiskin.

  TESTIMONY OF EDWARD D. REISKIN,\1\ DEPUTY MAYOR FOR PUBLIC 
            SAFETY AND JUSTICE, DISTRICT OF COLUMBIA

    Mr. Reiskin. Thank you, Mr. Chairman, Ranking Member Akaka. 
I would like to start by requesting that, in addition to our 
written testimony, the strategic plan itself and the associated 
documents be entered into the record.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Messrs. Reiskin, Crouch, and 
Schrader with attachments appears in the Appendix on page 34.
---------------------------------------------------------------------------
    Senator Voinovich. Without objection.
    Mr. Reiskin. I would like to start by affirming, as Mr. 
Griffin indicated, that we work collaboratively and in a 
coordinated way across the region every day. We work across 
jurisdictions, across disciplines, across sectors to provide 
for and improve the safety and security of the region. And 
while we have been working together for decades in the region 
through the Council of Governments, we certainly stepped that 
effort up after September 11, when the Mayor of the District of 
Columbia and the Governors of Maryland and Virginia came 
together to commit to a joint effort in securing the National 
Capital Region. And since that time, we have planned together. 
We have developed a Regional Emergency Coordination Plan. We 
are currently developing a Regional Evacuation and Sheltering 
Plan. We have trained our first responders and incident 
managers together. We have practiced together in exercises and 
many real events, as Mr. Griffin indicated. We have agreed on 
common standards for equipment and communications. We have 
jointly developed education, outreach, and alert notification 
systems for the public. And we have developed regional systems 
that are truly regional in nature, such as a disease 
surveillance system, law enforcement data-sharing system, water 
quality monitoring systems, and the interoperable 
communications infrastructure that Mr. Crouch will discuss.
    My point is that collaboration and coordination across the 
region is not something new. It is something that we do every 
day.
    The strategic plan that has been the subject of interest to 
this Subcommittee is just another manifestation of that 
collaboration, albeit it a significant one. This plan, which 
updates the previous strategy that we had developed in 2003, 
represents a significant effort of broad-based collaboration, 
and collaboration far beyond the stakeholders that you see 
sitting at this table, to identify how we should move forward 
to safeguard and secure the region. It incorporates learnings 
from a regional emergency management accreditation program 
assessment process from the Department of Homeland Security's 
National Plan Review, from our own review of our programs and 
capabilities.
    As we have previously testified, the plan starts with a 
vision for a safe and secure region and articulates the mission 
of the many homeland security partners in the region to achieve 
that vision. It establishes four goals: Improved coordination, 
improved community engagement, improved prevention and 
protection, and improved response and recovery. And under each 
of these goals are objectives we have identified to achieve 
each goal, and under each objective are initiatives we need to 
execute in order to achieve the objectives.
    Some of these initiatives, in fact, are already underway. A 
critical one and one that will help further shape the plan's 
implementation is a regionwide risk assessment. The risk 
assessment will analyze the threats faced by the region, take a 
look at our vulnerabilities and the consequences of various 
different threat scenarios in order to develop the risk profile 
of the region, both for natural and manmade disasters, which 
will help us to better prioritize our efforts and this plan 
moving forward.
    Overall, the plan provides a robust framework for 
decisionmaking. It has the buy-in of all the stakeholders 
across our diverse region, and it will guide decisions, not 
just of funding but of policy, of procedure, of legislation, of 
standards. And, indeed, since we have had this plan largely in 
place for a while now, we have already used it. It guided our 
allocation of the last round of UASI funds, and we are using it 
to prioritize our activities now on an ongoing basis. And, 
Ranking Member Akaka, it is most certainly a working document, 
and, in particular, as both you and the GAO have suggested, we 
will work to refine and improve the metrics so that we can hold 
ourselves accountable for improvement moving forward.
    I do want to note that this plan is not an operational 
plan. This is not the document that you pick up when a 
hurricane strikes or when a bomb explodes. Jurisdiction 
Response Plans--in our case, the District Response Plan--are 
what prescribe our response. And we have all had Response Plans 
in place for a long time. We train our people to those plans, 
we exercise those plans, and we activate those plans during 
disasters. So I do want you to rest assured, and as I think Mr. 
Griffin indicated, that we have the ability to respond today. 
The strategic plan will help us improve our capabilities not 
just to respond but to prevent, protect against, and recover 
from disaster.
    With my remaining seconds, I would like to take a moment to 
brag a little bit. Earlier this week, Secretary Chertoff joined 
Mayor Williams at the ribbon-cutting ceremony for our new 
Unified Communications Center, which is a brand new center off 
of Martin Luther King Jr. Avenue in Southeast Washington, DC, 
which will house--or is housing now a state-of-the-art public 
safety communications system and a new state-of-the-art 
Emergency Operations Center. This is an investment largely of 
local dollars, though with some Federal support, and it is 
really a tremendous step forward for us on bringing together 
all the critical communications that are needed both on a day-
to-day basis as well as that would be needed for a disaster. So 
it is something that we are very proud of, and I invite you and 
your staffs to come visit it at any time.
    With that, I thank you for having us here today.
    Senator Voinovich. Thank you very much. Mr. Crouch.

 TESTIMONY OF HON. ROBERT P. CROUCH, JR.,\1\ ASSISTANT TO THE 
    GOVERNOR FOR COMMONWEALTH PREPAREDNESS, COMMONWEALTH OF 
                            VIRGINIA

    Mr. Crouch. Yes, sir. Thank you, Mr. Chairman, Ranking 
Member Akaka. It is a pleasure to be with you here this morning 
and to speak to interoperability in the National Capital 
Region. And I was impressed that both the Chairman and the 
Ranking Member in their opening statements mentioned the fact 
that we do indeed have effective voice interoperability 
throughout the National Capital Region, and that was 
demonstrated on September 12 at the demonstration in 
Alexandria. That demonstration brought together 50 different 
agencies and responder groups from throughout the National 
Capital Region, including firefighters, police officers, and 
others from the city of Alexandria; from Arlington County; the 
District of Columbia; Fairfax County; Frederick County, 
Maryland; Loudoun County, Virginia; Montgomery County; Prince 
George's County, as was noted by Senator Akaka--and thank you 
for making that reference, Senator--Prince William County; 
Maryland State Police; Maryland Department of Transportation; 
the Virginia State Police; the Virginia Department of 
Transportation; the FBI; and ATF.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Messrs. Reiskin, Crouch, and 
Schrader with attachments appears in the Appendix on page 34.
---------------------------------------------------------------------------
    What that demonstration evidenced was not simply that those 
agencies had the capacity to connect through voice 
interoperability, but that, in fact, they frequently do so day 
to day as they respond to the concerns of the people within the 
District of Columbia and in the Maryland and Virginia suburbs. 
So it is important to note that this is operational voice 
interoperability that we have throughout the National Capital 
Region.
    An important aspect of that interoperability is incident 
command. We know that interoperability, whether it is data or 
voice, is not simply a matter of technology, but it is also a 
matter of culture. And I would echo what both Ed Reiskin and 
Tony Griffin have said earlier in this testimony regarding the 
importance of our reliance on the localities, and the 
localities are where these events occur and where the great 
credit needs to go in terms of developing these responses.
    We, at the State level and at the Federal level, can say a 
lot and try to do a lot in terms of cooperation and 
coordination, but unless the localities and the first 
responders in those localities are committed to that 
cooperation, our rhetoric is for naught. And the 
accomplishments that have been achieved thus far in the 
National Capital Region and the interoperability field 
otherwise really are to the credit of our first responders and 
our local departments and agencies and local governments. But 
incident command is a critical aspect of that, and all of our 
agencies have adopted the National Incident Management System, 
trained to that, and practice it every day.
    As the printed submitted testimony indicates, throughout 
the National Capital Region we have used over $50 million in 
UASI funding in the past 3 years to address interoperability 
issues. Many of those projects are included among those 
projects are reverse 911 systems, patient tracking for mass 
casualty and surge capacity, the development of the WebEOC 
system. The Chairman asked about data interoperability, and 
this is clearly our next big challenge as we move forward. We 
have several initiatives already ongoing in the data-sharing 
arena, including WebEOC, which is Emergency Operations Center 
to Emergency Operations Center, giving visibility of events one 
to another; LInX, a Law Enforcement Information Sharing System; 
AFIS, an Automatic Fingerprint Identification System; 
RoamSecure, which provides e-mail alerts via handheld devices; 
the National Capital Region Syndromic Surveillance Network, 
which is a health trend surveillance network for disease; and a 
Hospital Mutual Aid Radio System.
    As we move forward in terms of our efforts for the National 
Capital Region, it is important, again, to emphasize that all 
of this is linked to efforts within the States and within the 
localities. In Virginia, we have a very robust project underway 
to develop a new communications system among our 21 State 
agencies. We call it STARS. The Commonwealth has invested $360 
million in that. That effort is closely linked to what we are 
doing in the National Capital Region.
    Additionally, we have a Commonwealth Interoperability 
Office that works closely with our localities, has developed a 
strategic plan that the Department of Homeland Security uses as 
a model for States throughout the Nation, and governs the 
grants process for interoperability efforts throughout the 
Commonwealth. But all of those efforts at the State level are 
linked closely with what we are doing in the National Capital 
Region, just as the Unified Communications Center and efforts 
in Maryland, as well as Washington, DC, are also linked to 
those efforts.
    Data communication is our next focus, Mr. Chairman. We 
obviously need to continue building that out as we have 
continued to build out voice interoperability.
    It is a pleasure to be with you this morning, and I look 
forward to your questions.
    Senator Voinovich. Thank you. Mr. Schrader.

   TESTIMONY OF HON. DENNIS R. SCHRADER,\1\ DIRECTOR OF THE 
   GOVERNOR'S OFFICE OF HOMELAND SECURITY, STATE OF MARYLAND

    Mr. Schrader. Mr. Chairman, Ranking Member Akaka, thank you 
for having us here today. I want to mention that implementing 
the plan requires focus, a fiduciary responsibility on our 
part, which leads to management of cost, schedule, and 
performance, and that is the hallmark of the implementation of 
this plan. The plan includes 30 initiatives with items such as 
designing and conducting risk-based threat analysis, which is 
underway as we speak; increasing civic involvement and 
volunteerism in all phases of disaster preparedness; and 
developing a common regional information-sharing and 
collaboration framework.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Messrs. Reiskin, Crouch, and 
Schrader with attachments appears in the Appendix on page 34.
---------------------------------------------------------------------------
    I might add that we have been working on linking our Fusion 
Centers, and just anecdotally, recently when the United Kingdom 
situation unfolded, we were doing our monthly program review 
meeting in Richmond, and we managed our efforts collaboratively 
out of Richmond. So we are very well oriented towards working 
together. But getting those Fusion Centers linked is very 
important.
    The plan allows us to give strategic guidance to the 
practitioner community so that they can develop and execute 
specific projects to implement these initiatives. We have to 
have a system that is inclusive and transparent, and we have 
been developing that over the last 3 or 4 years, where we work 
in direct coordination with the local practitioners who guide 
us in implementation. And the strategic plan will give us the 
measures to gauge performance covering the full spectrum of 
activity and outcome measures that will lead us to success.
    In order to accomplish all this and coming out of our 
original plan that we adopted in 2003, we realized that we 
needed to focus on program management and accountability, which 
is not a small task. And the Program Management Office was 
established in 2004 and serves as the integrated State 
Administrative Agent for the National Capital Region and the 
District of Columbia and is responsible for program 
administration. That process has been evolving and continues to 
improve. The office was established to effectively manage the 
more than $234 million in grants that have been given to the 
region.
    We need additional tools, and we are in the process and by 
the end of the year we will have a new system called the State 
Preparedness Administrative Response System--the acronym is 
SPARS--which will allow us to do web-based project management 
through a web portal, and we are hoping that will migrate to 
the States.
    The Program Management Office is charged with implementing 
the strategic plan. It has a critical role in developing the 
processes, the methodologies, and tools to ensure that projects 
are completed on schedule and within budget. And there are 
monthly reviews of these projects.
    The projects are managed by sub-grants to the local 
jurisdictions which requires a significant amount of energy, 
time, and effort by the local jurisdictions, who also have day 
jobs. And we are sensitive to the fact that the Program Office 
has to work collaboratively, and it is quite an undertaking.
    In addition, the chief administrative officers who have 
shouldered the burden for being responsible for project 
implementation regularly review these projects, as we do, and 
we are focused on making sure that they are on time, and if not 
on time, we have a reprogramming process that reviews what 
backlog of projects could be moved up on the queue to move the 
program along.
    Last, I will mention that we are also very focused in this 
process of integrating Maryland, District of Columbia, and 
Virginia programs in the seven fundamental areas of homeland 
security, which include public safety communications, 
information sharing and intelligence, law enforcement, 
transportation security, emergency preparedness, health and 
medical, and critical infrastructure protection. I would add 
that, for example, in our transit grants, we have one committee 
which manages all the Maryland and NCR grants collaboratively 
because of the feeder systems that come from Maryland and 
Virginia into the District, and that has been very successful.
    Probably our greatest challenge is the execution of project 
management and our fiduciary role in that, and we take that 
very seriously. And it is ongoing week by week. We have weekly 
conference calls where we focus on this on a week-in and week-
out basis. Thank you, Mr. Chairman.
    Senator Voinovich. Thank you very much. Mr. Lockwood.

 TESTIMONY OF THOMAS LOCKWOOD,\1\ DIRECTOR, OFFICE OF NATIONAL 
   CAPITAL REGION COORDINATION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Lockwood. Mr. Chairman, Ranking Member Akaka, thank you 
for the opportunity to come to discuss our efforts. The last 
time that we met, the Subcommittee raised a number of questions 
and concerns regarding regional coordination and the status of 
the strategic plan. Per your recommendations, we have worked 
very closely with GAO on several occasions for advice, input, 
and to discuss key recommendations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lockwood appears in the Appendix 
on page 204.
---------------------------------------------------------------------------
    As you have heard from my State and local colleagues, we 
have made significant progress in the National Capital Region, 
beyond the plan itself, but also the fundamentals that go 
within the plan. The centerpiece of this effort, in fact, is 
the strategic plan that is complete, and I join Ed Reiskin, my 
fellow members of the SPG, and our local government, in 
submitting this plan for the record. The plan has three parts: 
The Core Plan that provides the overall strategy goals and 
objectives; Volume II, which is the detailed practitioner-level 
information; another piece is the overview briefly summarizing 
key points of this for the lay personnel.
    The completion of the plan is a significant milestone. In 
reviewing our homeland security plans, including those supplied 
by GAO, it is clear that this plan is unprecedented. Our region 
is complex. We have multiple jurisdictions. We have multiple 
challenges and organizations here which we detailed in the last 
testimony. As you can appreciate, any catastrophic event, 
whether natural or human-caused, respects no boundaries. When 
coupled with the geopolitical complexities in the NCR, we can 
appreciate the significant challenges in this region. 
Completion of this plan required significant investment of 
resources, time, and focus at all levels--public and private. 
It has been unprecedented, and they have built a strong, long-
term plan.
    The plan is a 3- to 5-year plan for managing risk and 
strengthening homeland security. The 3-year phase of the plan 
looks at the programming, budgeting, and execution, but 
provides an overall planning framework for the next 5 years. It 
sets forth clear strategic goals, objectives, specific 
initiatives to make the NCR safe and secure. It provides a 
means to gauge the region's progress and over time to make 
informed adjustments to the strategy.
    The NCR partners went to great lengths to align the details 
of the plan with large numbers of planning documents, guidance, 
and recommendations from GAO on various assessments. While 
assessing risks and identifying vulnerabilities and 
understanding their consequences are critical to determining 
what needs to be done, the fundamentals of collaboration, 
coordination, and information and resource sharing are the 
principal means of how to build and sustain these capabilities 
in the region. The plan serves as a road map for strengthening 
these capabilities and enhancing the capacity to realize this 
vision over time.
    In March, we reported that the final plan was delayed in 
order to take into account results and outcomes of the 
Emergency Management Accreditation Program assessment and DHS's 
National Review Plan. Since that time, all of the jurisdictions 
have completed the regional assessments. This is the first time 
in the Nation that this assessment has been applied in a 
regional context.
    The process demonstrates that jurisdictions or in this case 
multiple jurisdictions, are aiming to use its resources to 
provide these capabilities, and it truly is revolutionary what 
was done here. This was discussed recently with the National 
Emergency Management Association truly as a precedent.
    Additionally, in June, the Department completed the 
National Plan Review and provided post-Katrina recommendations 
and assessments. The results of these have been included in the 
plan.
    In moving forward, we have talked about the framework that 
has been established to execute the plan. A team, 
collaborative, bottom-up approach that we will use to continue 
to develop and promote the culture in the region. We will 
continue to enhance our coordinated approach for communications 
and interaction amongst the stakeholders for more effective 
prioritization and execution within the region.
    We will update this plan on an annual basis to reflect 
changes in conditions. It provides the region with a common 
framework to coordinate and implement.
    In closing, the plan is the outcome of a long, 
comprehensive, collaborative process. It is part of the long-
term regional picture of preparedness efforts. The region 
continues to work well, working across as peers and 
stakeholders within the safety for the National Capital Region.
    Senator Voinovich. Thank you, Mr. Lockwood. Mr. Jenkins.

  TESTIMONY OF WILLIAM O. JENKINS, JR.,\1\ DIRECTOR HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Jenkins. Chairman Voinovich, Ranking Member Akaka, I am 
pleased to be here today to discuss the National Capital 
Region's recently completed strategic plan. We first 
recommended in 2004 that the NCR create a strategic plan. A 
coordinated strategic plan, appropriately implemented, is 
fundamental to ensuring that the region as a whole is prepared 
for the risks and hazards it faces. To be effective, the plan 
must be a living document that is used as a guideline and road 
map for funding and implementing initiatives to build and 
sustain needed emergency preparedness and response capabilities 
within the region.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jenkins appears in the Appendix 
on page 208.
---------------------------------------------------------------------------
    In our testimony last March, we identified six desirable 
characteristics of strategic planning that we suggested should 
be embodied in the NCR Strategic Plan, and the completed plan 
includes all six. These characteristics reflect three basic 
principles: One, the inclusion of a clear statement of what is 
important and why; two, identification of resources to achieve 
the identified goals and objectives; and, three, the 
establishment of performance measures and accountability for 
monitoring progress and achieving key goals and objectives.
    The plan's structure is more streamlined than previously 
and includes three basic parts: An overview, a core plan, and a 
detail appendix with initiatives and information on such things 
as risk, cost, roles, and responsibilities.
    The plan is a noticeable improvement over prior documents 
and more clearly defines the roles and responsibilities of 
various groups responsible for developing, revising, and 
implementing the plan. Although the completed plan is a 
noticeable improvement, the substance of the information in the 
plan could be improved. Two examples:
    First, the plan does not reflect the results of the 
comprehensive risk assessment for the region. Completion of 
such an assessment, which is underway, using a common framework 
as a priority initiative in the plan and should be completed as 
soon as possible. When this more comprehensive assessment is 
completed, it may indeed require revisiting some of the plan's 
priorities.
    Second, although the plan defined objectives as being key, 
measurable milestones for each goal, performance measures for a 
number of objectives are stated in rather vague terms, such as 
``enhance,'' ``improve,'' ``increase,'' or ``strengthen.'' 
Although the plan includes outcome measures, a number of its 
measures are activities, such as number of registered 
volunteers.
    The plan identifies 30 initiatives with the leads dispersed 
across a number of organizations. It will be essential that the 
activities of the various lead organizations are well 
coordinated and that they have the authority, resources, and 
mechanisms to carry out their lead responsibilities 
effectively. Moreover, there is a potential gap between the 
estimated cost of the plan's initiatives, about $100 to $150 
million, and the resources that may be available to the NCR and 
its member jurisdictions from Federal sources. This year, for 
example, the NCR received about $100 million less than it had 
requested for its Urban Area Security Initiative grant. 
Therefore, the plan should recognize that if the plan's 
initiatives are to be implemented on schedule, especially the 
18 scheduled for completion in 2007, NCR jurisdictions may need 
to contribute more than originally anticipated toward their 
completion.
    As has been noted, the NCR is not an operational entity, 
but the result of implementing the NCR Strategic Plan must be 
effective regional operational capabilities. Thus, it is 
essential that the operational plans in member jurisdictions 
align with and support the NCR strategic goals and objectives.
    In conclusion, Mr. Chairman, the NCR has made noticeable 
progress in developing its first strategic plan. Although we 
have identified limitations that should be addressed, the 
challenge now is one of effective implementation. This includes 
careful monitoring of initiatives and ongoing assessment of the 
plan's success in achieving needed capabilities and operational 
plans. The goal must be the region's collective ability to 
protect against, prepare for, and respond with effective, well-
planned, and well-coordinated actions that will save lives and 
mitigate the effects of a major or catastrophic disaster in the 
region.
    That concludes my statement, Mr. Chairman. I would be 
pleased to respond to any questions you or the Ranking Member 
may have.
    Senator Voinovich. Thank you very much.
    Mr. Schrader, you mentioned that the NCR has received more 
than $234 million in grants. Mr. Griffin, you also mentioned 
that in your respective jurisdictions you are spending a lot 
more money than you had originally anticipated.
    I would like to know the numbers from your respective 
jurisdictions in terms of the amount of additional money that 
you believe you are spending that is attributable to this new 
challenge since September 11, 2001. We are trying to get this 
information for the Department of Homeland Security. It is a 
significant sum of money, and it is interesting to know just 
what we are doing to protect the homeland and the NCR.
    Mr. Jenkins, the issue always is are we going to be able to 
measure success. From an oversight point of view, 6 months from 
now if we had a hearing, what are the measurements that we 
would use to determine whether or not things are on track in 
the NCR?
    Mr. Jenkins.Well, I think as we say in our statement, one 
of the things is as these initiatives are put forward, the way 
you are going to be able to measure progress is that the 
initiatives have themselves specific measures that are a little 
bit--definitely more specific than ``strengthen'' or 
``enhance,'' as well as the objectives. So you know that this 
initiative is designed to get you to a certain point, and it 
should be focused on capabilities, the capabilities that you 
are gaining by being able to do this. And that means that you 
have to have, first of all, a notion of where I want to go, 
what is the end goal that I want to get to, some notion of 
where I am relative to that goal and how much this particular 
initiative or combination of initiatives is going to help you 
close that gap.
    Senator Voinovich. Mr. Jenkins, are there measurements in 
the plan right now that we can look to?
    Mr. Jenkins. There are a mixture of measures, and there are 
outcome measures. We think that there--as I said in my oral 
statement, there are things where they really can focus a 
little bit more on things that are quantifiable measurements. 
They should not be so much activity measures. They should be 
essentially outcome measures to the maximum extent possible. 
And they do have some outcome measures, but we would be happy 
to--we have pointed out to them in an oral briefing that we had 
on our assessment where we think some of the measures can be 
improved.
    Senator Voinovich. Mr. Reiskin, you are an appointee of the 
mayor. Are you civil service?
    Mr. Reiskin. I am not. I serve at the pleasure of the 
mayor.
    Senator Voinovich. The District of Columbia is going to 
have a new mayor. Has consideration been given in the event 
that they bring in somebody else that there is going to be a 
baton transfer?
    Mr. Reiskin. Well, I guess all I can say is both the 
current mayor and the presumptive mayor-elect have both said to 
each other and publicly that they are both absolutely committed 
to a smooth transition in all areas, but particularly including 
this one. And I actually was recently appointed interim city 
administrator for the District, and the one thing the mayor 
said to me was, ``What I need you to do is ensure that the 
transition is smooth.'' So I think that the commitment is 
clearly there on both sides to ensure that happens.
    Senator Voinovich. Do you have reliable people working with 
you that are civil service?
    Mr. Reiskin. Yes. The majority of the government, of 
course, is in a civil service or protected position. It is 
really just the top layer that is not.
    Senator Voinovich. Are all of the other people in front of 
me appointed, with changes in administration? When I was 
governor, I would tell my folks that you have got to have 
somebody who can takeover if something happens to you. You have 
all thought about this and are prepared?
    Mr. Reiskin. And we have recently, in Virginia, gone 
through a transition where the person that we worked with on a 
day-to-day basis moved on, a new governor came in, and I would 
say that we really carried on without skipping a beat in terms 
of coordination across the region. So I expect that would 
continue.
    Senator Voinovich. Great. From my perspective, you all get 
along together. You can have the best plan in the world, but if 
folks do not get along then you are in trouble. But if everyone 
gets along then you have a wonderful opportunity to be 
successful.
    Senator Akaka, we will have 5-minute rounds.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Reiskin, on September 17, the NCR held an exercise to 
test the region's ability to evacuate Metro transit system 
after a bomb exploded. That was the scenario. One capability 
tested was whether first responders could communicate if radio 
equipment in the Metro tunnels was knocked out.
    Will you please share what worked, what did not work, and 
what procedural changes have been made since the exercise?
    Mr. Reiskin. Certainly, I will try, Ranking Member Akaka. 
One of the objectives in the exercise was to take down the 
communications system. That was the purpose of the exercise, to 
test what the response would be.
    What worked was our radio cache. With our Federal dollars 
we purchased 1,250 radios that are deployed across the region, 
that are all programmed in the same way so that when direct or 
patched communications do not work, for whatever reasons, a 
reason like this or because something is coming in from the 
outside, we have ways to interoperate and communicate. That 
cache was deployed, and I would say that aspect of this worked. 
A temporary repeater was brought down into the tunnel to enable 
the radios to work. That part worked.
    What I think did not work was the communication between the 
radio cache radios and the Metro system radios that were 
brought back up when the repeater was put down. And it was not 
a technological issue. It was a matter of the programming of 
some of the Metro radios. As I think Mr. Crouch indicated, 
often the technology is not the issue. We can do virtually 
anything voice-wise to connect people. But protocols have to be 
in place, radios have to be maintained, and my understanding is 
that the fleet maps, how the different channels on the radios 
were set were not consistent such that people could find each 
other from a cache radio to a Metro radio.
    That is my understanding. I think they are still doing an 
after-action review, but, clearly, one of the lessons that will 
come out of that--and I would imagine it is happening already--
is to ensure that all of the fleet mapping of all the radios 
are up-to-date. One of the things our new Unified 
Communications Center houses is our radio function, and we, 
within the District, have centralized that to make sure that we 
maintain our radios and keep them up-to-date. That is a piece 
of making sure interoperability across the region works.
    Senator Akaka. Thank you. I would like--and I should have 
mentioned it--to hear from Mr. Crouch and Mr. Schrader on the 
same question.
    Mr. Crouch. Thank you, Senator. I certainly would agree 
with Mr. Reiskin's assessment. I would also point out that one 
use of the radio caches that he mentioned--and we have three of 
those that have been purchased through the UASI funding 
throughout the National Capital Region--is to have radios that 
are available if folks were to come from Richmond or Baltimore, 
for example, to assist in an event and we would have those 
additional radios available. But it is important to note that 
those radios are not just used in an exercise such as the 
recent Metro exercise, but they are used on events like the 4th 
of July and other events regularly in the region. So we make 
sure that the maintenance is up-to-date in that regard.
    Senator Akaka. Mr. Schrader.
    Mr. Schrader. Yes, Ranking Member Akaka. I also wanted to 
add that one of the things that the development of this plan 
has done for us is it has brought us much closer to the WMATA 
leadership. Mr. Tangherlini has made it his business to get 
engaged. We have worked collaboratively. In this past grant 
cycle, for example, we are investing $3 million in improving 
and upgrading the communications elements down in the tunnels. 
So we recognize that the WMATA asset is an asset for the 
region, and each of our jurisdictions has a major stake in 
that. And these exercises are funded through this process, and 
quite frankly, it is good that we are finding these things in 
the exercises.
    So I think that as a takeaway it is actually--it did what 
it was supposed to do. It highlighted where the gaps might be, 
and we are going to be able to fix them.
    Senator Akaka. One interesting comment that was made by Mr. 
Reiskin--and I just want to ask you to expand on that. You used 
the word ``protocol'' as possibly a problem. Can you explain 
what you mean by that?
    Mr. Reiskin. The technology of interoperable communications 
is fairly well developed, and I think within the region we are 
fairly advanced in it. But if we do not have agreement and 
understanding of when an incident happens this is the channel 
we are going to go to, or we do not have the protocols in place 
to be able to communicate that information, or if the fleet map 
on the radios in the District are different than where they are 
in Arlington and I am not keeping up with their changes, then 
all the technology in the world will not help us. We need to 
have those protocols clearly laid out, exercised, and 
understood. And then we have to maintain the system such that 
the protocols can be successfully implemented.
    And, frankly, in exercises we have all the time, we find 
glitches where somebody has changed a channel on the radio 
that, if people were going to try to converge on that channel 
to talk, they would find that they could not.
    So it takes quite an effort to make sure that the radio 
systems are maintained and that the protocols are in place. 
But, fortunately or not, we get a lot of practice in using the 
cache during major events or radio systems during any kind of 
mutual aid event. So we have kind of a constant feedback cycle 
built in to make sure that our protocols are in place such that 
the technology can be effective.
    Senator Akaka. Thank you for that. Mr. Chairman, my time 
has expired.
    Senator Voinovich. In the testimony you discussed risk 
assessment. I would suspect that each of you in your own 
respective jurisdictions have done your own risk assessments. 
Is that true?
    Mr. Reiskin. Yes.
    Senator Voinovich. Mr. Lockwood, are you looking at the 
whole region and prioritizing according to risks in the region?
    Mr. Lockwood. One of the outcomes of the EMAP assessment 
was a shortcoming of the true understanding of the integrated 
risk, and I believe that was picked up by the GAO testimony. 
The region has coordinated amongst itself to do a common risk 
assessment to pull in the various types of risks, whether they 
be the environmental risks, or all-hazard risks, to get a 
better understanding of the priorities and potential gaps. That 
assessment has already started, and we are actively engaged in 
that task now.
    Senator Voinovich. Does the Department of Homeland Security 
have some really good way of measuring this? For example, after 
the recent risk assessment there was a lot of moaning and 
groaning that people were not getting the money that they 
needed. Do you think that the tools that you have to look out 
there and ascertain the risk is adequate? Are you the one that 
is doing risk assessment for the region? Are all of you sitting 
at the table together and developing your own type of 
assessment based on your experience? How does that work?
    Mr. Lockwood. We as a community--and what you have heard a 
number of times today is the word ``partners''--whether that is 
the public or private partnership that we have, the local 
government, State, Federal, coming together to write a joint 
statement of work that we agree with for a risk assessment to 
be done.
    Part of my responsibility to the group is to reach out to 
those within the Department of Homeland Security that are risk 
experts and to make sure that they actively participate in this 
effort. For the Department this is truly a regional effort that 
is bringing in multiple perspectives beyond terrorism but 
including all hazards.
    Senator Voinovich. So you are taking advantage of the 
expertise that is at the Department of Homeland Security and 
then adding some things based on your own experience?
    Mr. Lockwood. Right.
    Senator Voinovich. You are going to have that done when?
    Mr. Lockwood. What is the timeline? Is it 6 months?
    Mr. Reiskin. It should be done the end of January 2007, so 
within about 4 months.
    Mr. Schrader. Mr. Chairman, could I add something to that?
    Senator Voinovich. Sure.
    Mr. Schrader. Let me give you an example of how it really 
works in a practical way. In Maryland, we have been working on 
maritime risk. We put a strategic plan together working with 
our Area Maritime Security Committee, and we have brought that 
to the group and said we need to be thinking about maritime 
risk. And people have said, Virginia has got concerns in 
Norfolk, we have concerns. We then said, we need to get 
together on this and really integrate these risks.
    So as a practical matter, it is working, and we need to 
have our own focused areas. For example, Maryland has a 
significant stake in the Chesapeake Bay and up through 
Maryland's Port of Baltimore, the Bentley Port. But until we 
actually come together and put it on the table, we may not get 
the benefit.
    Now we have put it on the table. We are going to be working 
on that, and those are the kinds of practical things that we 
are working on together.
    Senator Voinovich. The Metro system has asked for an 
authorization of $1.5 billion. Are you familiar with that 
request?
    Mr. Griffin. Mr. Chairman, you said a billion and a half?
    Senator Voinovich. Yes.
    Mr. Griffin. Yes, that is a request oriented towards 
maintaining the system so it can continue to handle its current 
passenger load.
    Senator Voinovich. You are fairly familiar with it then, 
Mr. Griffin?
    Mr. Griffin. Somewhat familiar. Fairfax County is a funding 
partner.
    Senator Voinovich. Is a portion of that going to be 
attributable to dealing with homeland security?
    Mr. Griffin. No, sir.
    Senator Voinovich. It is not. It is just strictly to 
guarantee the system can operate.
    Mr. Griffin. Maintenance, can continue to operate at the 
levels it is operating now.
    Senator Voinovich. Separate and apart from things that you 
need to do from a technology point of view in terms of threats 
of terrorism.
    Mr. Griffin. That is correct. However, as has been noted 
earlier, WMATA has been working with the CAOs and with the 
Senior Policy Group to identify critical issues from a security 
perspective, and where we have had the capacity financially to 
support that, we have done so.
    One example related to enhancing communication in the 
tunnel system. The other priority is having a duplicate or 
back-up operations center for the Metrorail system, something 
they have not been able to fund with their normal budgetary 
allocation. And we are working with them to support that as 
well.
    Senator Voinovich. At our last hearing in March, we talked 
about the tracking of non-Urban Area Security Initiative grants 
in the region. Could any one of you describe in detail what the 
region has done to assure the Subcommittee and the people 
within the NCR that the non-UASI funds that are being spent in 
the region are being spent in a coordinated, transparent 
fashion?
    Mr. Schrader. Yes, let me start with that, Mr. Chairman. In 
our testimony, we talk about the regional program working 
groups that we have established, and particularly in the area 
of training and exercises, critical infrastructure, just to 
name two, and health and medical. What those groups are tasked 
with--and let me just be specific; the individual who chairs 
our critical infrastructure program and the individual who 
chairs Bob's critical infrastructure, and also Ed's, all work 
together on this working group, and their charge is to 
integrate the three programs. So the money we----
    Senator Voinovich. So there are many pots of money?
    Mr. Schrader. Yes.
    Senator Voinovich. And you are all familiar with the pots 
of money that each of you have.
    Mr. Schrader. Absolutely.
    Senator Voinovich. In each State and the District.
    Mr. Schrader. Right. In Maryland, we have over $400 million 
over 5 fiscal years, which includes the central Maryland urban 
area, health and medical from HHS. So we have a high-level 
overview.
    Senator Voinovich. You look at the money so everybody knows 
where it is and then try to figure out how could it benefit 
somebody else so you do not have a duplicate situation?
    Mr. Schrader. I will give you a very specific example 
around Prince George's County. We have a governance group in 
Maryland that oversees interoperability. They have an over $60 
million initiative in place to put in a 700-mega-hertz system. 
Governor Ehrlich is investing $10 million a year in building a 
backbone statewide.
    We coordinate that, and in coordination with the NCR, we 
have gotten some additional money, almost $1.8 million from the 
NCR to contribute to that. So it is all integrated into one 
project, and with these multiple sources of money that are 
going toward the project. That is just one example.
    Senator Voinovich. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Reiskin, we have heard in previous hearings that the 
District has extensive evacuation plans in case of emergency in 
Washington, DC. Earlier this year, the city experienced 
significant flooding, which shut down the Metro, gridlocked the 
traffic, and made some parts of the city inaccessible.
    So my question to you is: Did you exercise any portion of 
the evacuation plan during the flood? And if so, please specify 
what actions you took and what you learned from it?
    Mr. Reiskin. No, we did not exercise or activate any aspect 
of the evacuation plan because we were not, in fact, trying to 
evacuate the District or the downtown. However, the management 
of traffic during that situation--there were some roads that 
were flooded. There were, I guess, some disruptions on Metro. 
The management of the traffic during that situation, even 
though we were not evacuating, did not work as well as it 
should. We had some coordination issues between our 
transportation and police departments that should not have 
happened. And I think we could have done that a lot better.
    So it was not an issue of the evacuation plan working or 
not, but there were definitely some fairly easy lessons learned 
from that that we ensured when Hurricane Ernesto came through, 
we were prepared to ensure those would not happen again.
    Senator Akaka. I asked that question just to see whether 
the evacuation plan could have been applied there. As you said, 
you did not, and yet I guess it will take some of these 
disasters that come up for us to try the plan out and see how 
it works.
    Mr. Reiskin. If I may, we actually have twice now, on the 
last two 4ths of July, activated--at least a partial activation 
of our evacuation plan, and I can tell you that this past July 
4 it went a lot better than the first because of the lessons we 
learned from the first. So that is one way that we can actually 
test the plan and a way that does not inconvenience people. As 
a matter of fact, it actually conveniences them because it 
allows people to get out more quickly. But unless it is our 
goal to get people out of the city quickly, which is not our 
goal every day at rush hour and it was not our goal during that 
flooding, we cannot test the evacuation plan per se.
    Some of the mechanisms that we need, such as traffic 
monitoring and deploying intersection control officers, are 
common to both, and that is where there are learnings from 
these other kinds of events that will, in fact, enhance our 
evacuation planning, although we are not activating the plan 
itself.
    Senator Akaka. Thank you.
    Mr. Crouch. Ranking Member Akaka, may I add a response?
    Senator Akaka. Mr. Crouch.
    Mr. Crouch. I believe it was mentioned earlier in the 
testimony that we are currently undertaking a new evacuation 
study for the region in cooperation with the Department of 
Homeland Security. We hope that, taken with the risk management 
study, will help inform our strategies additionally.
    And I would like to add that while our core focus from the 
Senior Policy Group perspective is the National Capital Region, 
we also recognize that what happens here and what we do here in 
response to events can potentially impact other parts of the 
country, and certainly the Mid Atlantic Region.
    Many of us participated earlier in the summer in a 
conference on evacuation that was held in West Virginia. There 
were representatives of eight States as well as the District of 
Columbia at that, including, Mr. Chairman, from the State of 
Ohio, to discuss issues focused on events in the National 
Capital Region and how those would impact out into other areas 
of the Mid Atlantic and West.
    So I just want to point out that our efforts here in the 
National Capital Region are not simply limited to Maryland, 
Virginia, and the District of Columbia, but we are also 
coordinating and have a very active dialogue with other States.
    Senator Akaka. Let me just further ask the question that I 
asked Mr. Reiskin about that flood. Did you, Mr. Schrader, make 
an effort to see how you would be able to help the District of 
Columbia during the flooding?
    Mr. Schrader. Yes, I specifically spoke to Mr. Reiskin 
during the flood and asked him--because they had declared an 
emergency. I have his cell phone number, and I called and 
offered assistance. He indicated that because of the water 
table here in the District around those areas, often basements 
would flood and it would cause problems with buildings, but at 
that point in time they did not need our assistance from 
Maryland. So we talked as the situation was ongoing.
    Senator Akaka. The reason I asked about the flood is 
because it was an unplanned natural disaster as opposed to 
something that you can see coming, such as a planned or 
simulated event.
    Thank you, Mr. Chairman. My time has expired.
    Senator Voinovich. Is there an NCR intelligence network or 
joint task force?
    Mr. Crouch. Yes, Mr. Chairman, we have Fusion Centers in 
both of our States, and as mentioned, now the Unified----
    Senator Voinovich. Is that what it is called, a Fusion 
Center?
    Mr. Crouch. Yes, sir.
    Senator Voinovich. It is where all of the local and Federal 
groups are continuing to get information and sharing it with 
each other so you have something that is dynamic?
    Mr. Crouch. Yes, sir. It is an intelligence-gathering and 
analysis function, and in Virginia, it is led by our Virginia 
State Police and our Department of Emergency Management as 
partners with other State agencies, local law enforcement, and 
Federal agencies.
    Senator Voinovich. From your perspective, how is it 
working?
    Mr. Crouch. Well, the Fusion Center concept is relatively 
new at the State level. We just stood ours up in Virginia at 
the beginning of this year. It is working well thus far. As in 
many other cases, it is an area where we need more resources, 
more analysts at the State level. We have had a very active 
dialogue with the Department of Homeland Security and the 
National Geospatial-Intelligence Agency regarding those 
partnerships, and we are hopeful that they will develop.
    Senator Voinovich. You have one in Virginia and Maryland. 
Mr. Reiskin, do you have one here in the District?
    Mr. Reiskin. We are actually in the process of standing up 
a Fusion Center. We have been working for the last 6 months or 
so with the Department of Homeland Security and the Washington 
Field Office of the FBI, and we are fairly close to being 
there. We have the functions in place. We have analysts in 
place. We have a very strong working relationship with the FBI 
through the Joint Terrorism Task Force. But our actual center 
will be up in the next 6 months.
    Senator Voinovich. What I think about is that through the 
intelligence network you find out that something is going to 
happen and how quickly that information can get to the NCR and 
trigger that so that you have a response.
    For example, on September 11, 2001 there was information 
about a plane still in the air, which was the plane that went 
down in Pennsylvania. I do not know when we finally got 
information about the plane, but everybody was evaculated. I 
will never forget that day as long as I live. But it would be 
interesting to know how soon did that information get out, and 
what was done to respond to it. Do these Fusion Centers put you 
in a much better position than if you had a repeat of that day, 
you would be able to react to it in a much quicker way?
    Mr. Reiskin. I would say generally yes, although in some 
ways there are slightly different issues, both of which we have 
prioritized within the strategic plan. On the intelligence 
side, it is often more on prevention and gathering global 
intelligence, local intelligence, assessing our threats to 
figure out where we need to focus our resources, what we need 
to exercise. And as Mr. Schrader mentioned, we are working to 
link our Fusion Centers, to fuse our Fusion Centers, so that we 
are part of the network nationwide that goes up to the Federal 
Government, down to the local governments, to be able to 
process all that information to be able to prevent things from 
happening.
    We have also been working on this alert notification issue, 
so when there is an emergent event, we can get the information 
either down from the Feds, up to the Feds, and out to the 
people who need to know that. That may or may not be a function 
within the Fusion Center. The emergent threat may go more 
through our Emergency Operations Center, and those centers, as 
Mr. Crouch mentioned, are now linked multiple ways, including 
through the interoperable data systems.
    Senator Voinovich. A couple times, the NCR airspace has 
been violated and we were evacuated. With that kind of 
information, how fast was that information translated to the 
NCR? And it gets back to your assessment. What are you going to 
do under those circumstances? I am pleased to know that you are 
continually exercising your interoperable communications.
    Mr. Crouch. Mr. Chairman, I would mention, too, that we do 
have--and this has been funded through the Urban Area Security 
Initiative funds--in the National Capital Region a system we 
call the Regional Incident Communications and Coordination 
System--RICCS is what we refer to it as--and that links all of 
us as well as folks at the local level in the region and in 
Federal agencies. Through the pager system and other methods, 
we get very quick notification of events as they are developing 
in the National Capital Region.
    Senator Voinovich. How much have we spent to secure the 
Capitol complex? I am working on trying to get a dollar figure, 
and it has been very difficult. Senator Akaka, you might be 
interested. I am trying to get how much have we really spent on 
the bollards. There is speculation that the green bollards cost 
$30,000 apiece. I hope that is not true. Is the District 
involved at all? We have all these hydraulic barriers that have 
been built, and we have closed off streets. Does the District 
have anything to say about it?
    Mr. Reiskin. The answer is--who is in charge of the 
security of the Capitol? It is the U.S. Capitol Police, and 
their jurisdiction is, I believe, statutorily defined and it 
actually extends beyond the immediate grounds. They report, as 
you probably know, to a Police Board, which are the Sergeant at 
Arms of the two Houses, as well as the Architect of the 
Capitol. And my understanding is that the decisions about 
bollards and pop-up barriers and the like are generally made by 
that board.
    Most of those decisions have happened without consultation 
with the District, and sometimes in the face of opposition from 
the District, because while we certainly respect and understand 
the need to protect these grounds, overprotection can inhibit 
our ability to respond to events and the needs of the citizens 
and residents and people who work in the District.
    That said, we try to work as closely as we can, the 
Metropolitan Police Department and the U.S. Capitol Police work 
very closely together because they are obviously----
    Senator Voinovich. So you have knowledge of the bollards 
and street closings before they happen? Or they just go ahead 
and do it and you find out about it afterwards?
    Mr. Reiskin. In some cases, the latter has happened.
    Senator Voinovich. Do you think that communication could be 
improved?
    Mr. Reiskin. I think it has improved. It could probably be 
improved more. But ultimately they have, I believe, statutory 
authority to do some of these things, and I do not think they 
need to ask our permission, let alone consult with us. But we 
work to build relationships on the ground level, the street 
level. There is very good coordination between the police 
forces, but the decisions of the Police Board are their 
decisions, and I think they have the authority to make them 
unilaterally.
    Senator Voinovich. Senator Akaka, it might be a good idea 
that we have a hearing on how the Capitol Police work with the 
other police in the NCR. I know we had a hearing about 4 or 5 
years ago dealing with that issue. There are several police 
forces that we have here. I think that the recent incident 
where a man drove into the Capital complex and climbed the 
steps and was in the Capitol with a firearm makes you ask 
yourself, really how secure are we?
     Who is in charge of securing the White House? The Secret 
Service? Do they have a geographic area where they are in 
charge of deciding what they are going to do?
    Mr. Reiskin. Yes, that is correct. And I do not know if 
theirs is statutorily----
    Senator Voinovich. Like Pennsylvania Avenue, right in front 
of the White House, it is closed off. I wonder how that closing 
fits in with traffic patterns and moving people in and out of 
the city.
    Mr. Reiskin. Right, and that example, we have formally 
requested the reopening of Pennsylvania Avenue and of E Street. 
Ultimately, it is Federal property--or it is surrounded by 
Federal property. And, interestingly, Pennsylvania Avenue right 
in front of the White House is still District property, 
although they have closed it off. They own the sidewalks. We 
own the street. It is a little bit of a complicated situation.
    But operationally on the ground, I want to assure you that 
both with the Secret Service and the Capitol Police that our 
police work very closely with them because anybody who is 
trying to get in here has to come through the city. So if our 
police were alerted to something happening, they are in direct 
communication with the Capitol Police.
    Senator Voinovich. Thank you. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman. I agree with you. I 
think we need to look into a possible hearing on that.
    Mr. Schrader, your testimony mentioned the usefulness of 
Citizen Corps Councils in Maryland.
    Mr. Schrader. Yes, sir.
    Senator Akaka. And what interests me is that this expands 
the parameter beyond government and to the citizenship.
    Mr. Schrader. Yes, sir.
    Senator Akaka. The only way for this country to be truly 
prepared for a disaster is to improve individual citizens' 
preparedness. Yet I have been concerned that the Citizen Corps 
program is not utilized or supported as well as it could be.
    The question is: Based on your experience in Maryland, how 
can the National Citizens Corps program be improved? And is 
there anything that Congress or DHS can do to improve Citizens 
Corps at the Federal level?
    Mr. Schrader. Well, in Maryland, Governor Ehrlich is very 
pleased with the Citizen Corps Council. We actually were the 
first State in the Union to have a Citizen Corps Council in 
every county in our State, and that was over a year and a half 
ago. Tomorrow, we are actually having our first statewide 
Citizen Corps Council at the Maryland Emergency Management 
Agency, so there is a commercial for tomorrow's conference. And 
we are reaching out.
    What really needs to happen is you have to have the 
emergency directors in the local jurisdictions embracing the 
Citizen Corps Councils. You have to have the CERT programs, the 
Citizen Emergency Response Teams, brought into that. And the 
other thing that needs to happen is you have to have a very 
clear mission for these folks who are trained because there is 
a concern, for example, within the professional public safety 
community that we do not want to train people who are going to 
suddenly show up at the scene of an incident now because they 
have gotten a couple days' worth of training.
    We are also talking to our folks, as you know, Health and 
Human Services has a requirement for pandemic planning. Our 
thinking in Maryland is that in the event of a pandemic, you 
are going to have a situation where you are going to need 
citizens in local jurisdictions. You are going to need local 
response capability.
    So we are trying to weave all this together. We also 
believe that the community colleges--Governor Ehrlich has put a 
tremendous amount of money into community colleges in these 
past 4 years since he has been in office. We believe that is a 
platform because a lot of what has to happen here is 
nonresident continuing education for adults. And that is 
another thing. So we have linked the community colleges also.
    So there are some techniques. The States are uniquely 
positioned to drive this. A lot of what is going on at DHS with 
the Ready.gov program as well as the National Preparedness 
Month program give us the framework, but it is really 
fundamentally a State and local responsibility to drive this. 
And we are having a lot of success, so we think it is a very 
worthwhile program.
    Senator Akaka. My question was what can Congress and DHS do 
on a Federal level, but I understand what you are saying, that 
primarily it is a State----
    Mr. Schrader. I think you have done a lot already. By 
creating the framework and providing the framework of resources 
and the program and the national websites and those sorts of 
things, you have enabled us.
    The thing about empowerment, you have empowered us to 
deliver. Empowerment is a two-way street, so it is our job to 
deliver the results on the emergency management performance 
grant, and we appreciate the fact that you have empowered us in 
that way, and we are taking--we have to take the effort to move 
it ahead.
    Senator Akaka. Thank you.
    Mr. Lockwood, a recent Washington Post article reported 
that DHS allocated additional funding and personnel to the 
Office of National Capital Region Coordination in recent 
months. It is my understanding that your office received 
approximately $30,000 from the avian flu supplemental, which 
clearly would be insufficient to fund any additional staff. So 
I have two questions for you.
    One, what was the avian flu funding used for? And did your 
office receive any funding or personnel in addition to that 
$30,000?
    Mr. Lockwood. Yes, sir. As discussed by Director Schrader, 
what we try to do is collaboratively pool our resources. The 
$30,000 resources for avian influenza is going to support the 
credentialing, the identity management capabilities of first 
responders, in particular the health care community. That is 
leveraging some of the other work that we are doing on identity 
management and credentialing of first responders to the health 
community.
    With regard to other resources, I understand that there are 
resources available through the chief medical officer's shop. 
We will coordinate that with our State and local partners 
through ESS 8 and 6 for prioritization of those and, again, the 
strategic plan will provide part of that framework.
    Senator Akaka. Did you receive any personnel assistance as 
well in this?
    Mr. Lockwood. Again, currently this year we have three 
full-time positions assigned to the office. We have had several 
detailees that have come to the office from TSA, and the 
Department of Defense again, Joint Forces Headquarters, 
National Capital Region. General Swan has been a great partner, 
again, trying to make this coordination between homeland 
security and homeland defense more seamless. We have been 
actively leveraging and working with the general.
    Senator Akaka. Mr. Lockwood, the budget for your office 
will increase over 100 percent next year. How will those 
additional funds be used? Do you have an idea?
    Mr. Lockwood. Yes, sir. Right now there are a number of 
coordinating bodies that we cannot devote full-time personnel 
to, in particular both with the fire, law enforcement, 
emergency management communities. In some cases, we sit in the 
coordinating meetings by exception rather than as a matter of 
process, which we believe we should. Those resources will 
ensure that we are coordinating there.
    Another piece that you have heard today is the discussion 
with regard to protocols. Part of the effort needs to be 
coordinated protocols, and you will see within the strategic 
plan that some of these resources will be applied for the 
coordination and maturation of protocols.
    Senator Akaka. Let me, Mr. Chairman, just finally, since I 
am on the subject of funding, ask Mr. Griffin: What percentage 
of the homeland security funding spent in the NCR comes from 
non-Federal, that is, State or local funds?
    Mr. Griffin. Senator, I do not have a precise number, but 
my estimate is that in excess of 90 percent, probably closer to 
95 percent of all funding spent on homeland security in the 
National Capital Region comes from State or local resources, 
with the vast majority of that actually coming from local 
resources.
    Senator Akaka. Thank you very much, Mr. Griffin.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you.
    Senator Akaka, I just received an alert, and we get these 
all the time, about strange substances and stay away from 
certain areas. I do not think that the people in our respective 
States or the District fully appreciate the amount of money 
that we are putting into securing the homeland. You have to 
wonder how we can pay for all of it. I had an analysis done 
that said, if we are going to try to balance up the money that 
we are spending on homeland security and the war, we would have 
to cut the domestic nondiscretionary budget by 30 percent. I 
suspect in each and every one of your cases, Mr. Lockwood, that 
you could use more money. I know there are a lot of areas in 
Homeland Security. But I just think that we need to do a better 
job of communicating to the public how serious this is. You 
take State budgets. I would be interested in knowing how much 
more money States are absorbing to pay for homeland security. 
Are there things that you have given up that you should be 
doing, but you are not doing because you are putting the money 
into the NCR? I really think it is important that we do a 
better job of letting people know. This is very serious 
business, and it is costing a whole lot of money. We talk about 
securing the border, and the reason why we have got a problem 
with the border is we did not spend the money in the first 
place to secure the border. Now we have a problem, and now we 
are going to spend the money. But it is going to be very 
costly. All of this spending keeps adding up and adding up.
    I will never forget that day when--I do not know whether 
you were in the Hart Building or not, Senator Akaka, when we 
had to evacuate. I remember coming back and I had heard about 
the Twin Towers going down, and then seeing on television there 
was a short building, and I said, ``That cannot be New York.'' 
And my staff said, ``No. That is the Pentagon.'' And the next 
thing we know, I was out of here.
    I was so angry, I said, ``I am not going. I am not going to 
let them, those terrorists, intimidate me.'' And my chief of 
staff almost picked me up and said, ``You are going out of 
here. If I do not get you out of here, somebody else is going 
to get you out of here.'' I do not know if you get mad about it 
or not, but Osama bin Laden has really wrought unbelievable 
change in this country. Somehow we have to figure out how to 
deal with it, and I just wonder if we are ever going to have it 
off our back. I think about my seven grandchildren. Senator 
Akaka has a lot more than that. But you wonder when will this 
ever be off their back? How far do we go to secure the homeland 
without bankrupting the country?
    It is a very frustrating time for all of us. I want to 
thank all of you for the good work that you are doing. It is 
very comforting to me to know that you are working with each 
other and trying to get the job done. It is not easy, and we 
will do what we can to be supportive of your efforts. If 
something comes up where you think we can be of help to you, I 
certainly want you to know to please contact us. Thanks again 
for being here.
    Senator Akaka. Mr. Chairman, may I ask one more question?
    Senator Voinovich. Sure.
    Senator Akaka. And this is for all of the witnesses 
representing the NCR. As you know, the NCR received an 
unexpected 40-percent cut in UASI funding this year. So my 
question to you is: How will this cut impact the timeline we 
are talking about for planned initiatives laid out in the 
strategic plan? Your answer does not have to be long.
    Mr. Crouch. I will take the first cut at that, Ranking 
Member Akaka. We talked about improving our data 
interoperability, and essentially it slows the process. We will 
accomplish our goals, but it pushes them out a couple of years 
farther than we would want. And part of the importance of that 
is that these are tools not just to address potential terrorist 
acts, but our approach is an all-hazards approach. So they are 
tools that are useful for our law enforcement and first 
responders day to day, every day and night as they serve the 
needs of the people in the National Capital Region communities.
    Senator Akaka. I guess you all agree with that.
    Thank you very much, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Akaka.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 30603.001

[GRAPHIC] [TIFF OMITTED] 30603.002

[GRAPHIC] [TIFF OMITTED] 30603.003

[GRAPHIC] [TIFF OMITTED] 30603.004

[GRAPHIC] [TIFF OMITTED] 30603.005

[GRAPHIC] [TIFF OMITTED] 30603.006

[GRAPHIC] [TIFF OMITTED] 30603.007

[GRAPHIC] [TIFF OMITTED] 30603.008

[GRAPHIC] [TIFF OMITTED] 30603.009

[GRAPHIC] [TIFF OMITTED] 30603.010

[GRAPHIC] [TIFF OMITTED] 30603.011

[GRAPHIC] [TIFF OMITTED] 30603.012

[GRAPHIC] [TIFF OMITTED] 30603.013

[GRAPHIC] [TIFF OMITTED] 30603.014

[GRAPHIC] [TIFF OMITTED] 30603.015

[GRAPHIC] [TIFF OMITTED] 30603.016

[GRAPHIC] [TIFF OMITTED] 30603.017

[GRAPHIC] [TIFF OMITTED] 30603.018

[GRAPHIC] [TIFF OMITTED] 30603.019

[GRAPHIC] [TIFF OMITTED] 30603.020

[GRAPHIC] [TIFF OMITTED] 30603.021

[GRAPHIC] [TIFF OMITTED] 30603.022

[GRAPHIC] [TIFF OMITTED] 30603.023

[GRAPHIC] [TIFF OMITTED] 30603.024

[GRAPHIC] [TIFF OMITTED] 30603.025

[GRAPHIC] [TIFF OMITTED] 30603.026

[GRAPHIC] [TIFF OMITTED] 30603.027

[GRAPHIC] [TIFF OMITTED] 30603.028

[GRAPHIC] [TIFF OMITTED] 30603.029

[GRAPHIC] [TIFF OMITTED] 30603.030

[GRAPHIC] [TIFF OMITTED] 30603.031

[GRAPHIC] [TIFF OMITTED] 30603.032

[GRAPHIC] [TIFF OMITTED] 30603.033

[GRAPHIC] [TIFF OMITTED] 30603.034

[GRAPHIC] [TIFF OMITTED] 30603.035

[GRAPHIC] [TIFF OMITTED] 30603.036

[GRAPHIC] [TIFF OMITTED] 30603.037

[GRAPHIC] [TIFF OMITTED] 30603.038

[GRAPHIC] [TIFF OMITTED] 30603.039

[GRAPHIC] [TIFF OMITTED] 30603.040

[GRAPHIC] [TIFF OMITTED] 30603.041

[GRAPHIC] [TIFF OMITTED] 30603.042

[GRAPHIC] [TIFF OMITTED] 30603.043

[GRAPHIC] [TIFF OMITTED] 30603.044

[GRAPHIC] [TIFF OMITTED] 30603.045

[GRAPHIC] [TIFF OMITTED] 30603.046

[GRAPHIC] [TIFF OMITTED] 30603.047

[GRAPHIC] [TIFF OMITTED] 30603.048

[GRAPHIC] [TIFF OMITTED] 30603.049

[GRAPHIC] [TIFF OMITTED] 30603.050

[GRAPHIC] [TIFF OMITTED] 30603.051

[GRAPHIC] [TIFF OMITTED] 30603.052

[GRAPHIC] [TIFF OMITTED] 30603.053

[GRAPHIC] [TIFF OMITTED] 30603.054

[GRAPHIC] [TIFF OMITTED] 30603.055

[GRAPHIC] [TIFF OMITTED] 30603.056

[GRAPHIC] [TIFF OMITTED] 30603.057

[GRAPHIC] [TIFF OMITTED] 30603.058

[GRAPHIC] [TIFF OMITTED] 30603.059

[GRAPHIC] [TIFF OMITTED] 30603.060

[GRAPHIC] [TIFF OMITTED] 30603.061

[GRAPHIC] [TIFF OMITTED] 30603.062

[GRAPHIC] [TIFF OMITTED] 30603.063

[GRAPHIC] [TIFF OMITTED] 30603.064

[GRAPHIC] [TIFF OMITTED] 30603.065

[GRAPHIC] [TIFF OMITTED] 30603.066

[GRAPHIC] [TIFF OMITTED] 30603.067

[GRAPHIC] [TIFF OMITTED] 30603.068

[GRAPHIC] [TIFF OMITTED] 30603.069

[GRAPHIC] [TIFF OMITTED] 30603.070

[GRAPHIC] [TIFF OMITTED] 30603.071

[GRAPHIC] [TIFF OMITTED] 30603.072

[GRAPHIC] [TIFF OMITTED] 30603.073

[GRAPHIC] [TIFF OMITTED] 30603.074

[GRAPHIC] [TIFF OMITTED] 30603.075

[GRAPHIC] [TIFF OMITTED] 30603.076

[GRAPHIC] [TIFF OMITTED] 30603.077

[GRAPHIC] [TIFF OMITTED] 30603.078

[GRAPHIC] [TIFF OMITTED] 30603.079

[GRAPHIC] [TIFF OMITTED] 30603.080

[GRAPHIC] [TIFF OMITTED] 30603.081

[GRAPHIC] [TIFF OMITTED] 30603.082

[GRAPHIC] [TIFF OMITTED] 30603.083

[GRAPHIC] [TIFF OMITTED] 30603.084

[GRAPHIC] [TIFF OMITTED] 30603.085

[GRAPHIC] [TIFF OMITTED] 30603.086

[GRAPHIC] [TIFF OMITTED] 30603.087

[GRAPHIC] [TIFF OMITTED] 30603.088

[GRAPHIC] [TIFF OMITTED] 30603.089

[GRAPHIC] [TIFF OMITTED] 30603.090

[GRAPHIC] [TIFF OMITTED] 30603.091

[GRAPHIC] [TIFF OMITTED] 30603.092

[GRAPHIC] [TIFF OMITTED] 30603.093

[GRAPHIC] [TIFF OMITTED] 30603.094

[GRAPHIC] [TIFF OMITTED] 30603.095

[GRAPHIC] [TIFF OMITTED] 30603.096

[GRAPHIC] [TIFF OMITTED] 30603.097

[GRAPHIC] [TIFF OMITTED] 30603.098

[GRAPHIC] [TIFF OMITTED] 30603.099

[GRAPHIC] [TIFF OMITTED] 30603.100

[GRAPHIC] [TIFF OMITTED] 30603.101

[GRAPHIC] [TIFF OMITTED] 30603.102

[GRAPHIC] [TIFF OMITTED] 30603.103

[GRAPHIC] [TIFF OMITTED] 30603.104

[GRAPHIC] [TIFF OMITTED] 30603.105

[GRAPHIC] [TIFF OMITTED] 30603.106

[GRAPHIC] [TIFF OMITTED] 30603.107

[GRAPHIC] [TIFF OMITTED] 30603.108

[GRAPHIC] [TIFF OMITTED] 30603.109

[GRAPHIC] [TIFF OMITTED] 30603.110

[GRAPHIC] [TIFF OMITTED] 30603.111

[GRAPHIC] [TIFF OMITTED] 30603.112

[GRAPHIC] [TIFF OMITTED] 30603.113

[GRAPHIC] [TIFF OMITTED] 30603.114

[GRAPHIC] [TIFF OMITTED] 30603.115

[GRAPHIC] [TIFF OMITTED] 30603.116

[GRAPHIC] [TIFF OMITTED] 30603.117

[GRAPHIC] [TIFF OMITTED] 30603.118

[GRAPHIC] [TIFF OMITTED] 30603.119

[GRAPHIC] [TIFF OMITTED] 30603.120

[GRAPHIC] [TIFF OMITTED] 30603.121

[GRAPHIC] [TIFF OMITTED] 30603.122

[GRAPHIC] [TIFF OMITTED] 30603.123

[GRAPHIC] [TIFF OMITTED] 30603.124

[GRAPHIC] [TIFF OMITTED] 30603.125

[GRAPHIC] [TIFF OMITTED] 30603.126

[GRAPHIC] [TIFF OMITTED] 30603.127

[GRAPHIC] [TIFF OMITTED] 30603.128

[GRAPHIC] [TIFF OMITTED] 30603.129

[GRAPHIC] [TIFF OMITTED] 30603.130

[GRAPHIC] [TIFF OMITTED] 30603.131

[GRAPHIC] [TIFF OMITTED] 30603.132

[GRAPHIC] [TIFF OMITTED] 30603.133

[GRAPHIC] [TIFF OMITTED] 30603.134

[GRAPHIC] [TIFF OMITTED] 30603.135

[GRAPHIC] [TIFF OMITTED] 30603.136

[GRAPHIC] [TIFF OMITTED] 30603.137

[GRAPHIC] [TIFF OMITTED] 30603.138

[GRAPHIC] [TIFF OMITTED] 30603.139

[GRAPHIC] [TIFF OMITTED] 30603.140

[GRAPHIC] [TIFF OMITTED] 30603.141

[GRAPHIC] [TIFF OMITTED] 30603.142

[GRAPHIC] [TIFF OMITTED] 30603.143

[GRAPHIC] [TIFF OMITTED] 30603.144

[GRAPHIC] [TIFF OMITTED] 30603.145

[GRAPHIC] [TIFF OMITTED] 30603.146

[GRAPHIC] [TIFF OMITTED] 30603.147

[GRAPHIC] [TIFF OMITTED] 30603.148

[GRAPHIC] [TIFF OMITTED] 30603.149

[GRAPHIC] [TIFF OMITTED] 30603.150

[GRAPHIC] [TIFF OMITTED] 30603.151

[GRAPHIC] [TIFF OMITTED] 30603.152

[GRAPHIC] [TIFF OMITTED] 30603.153

[GRAPHIC] [TIFF OMITTED] 30603.154

[GRAPHIC] [TIFF OMITTED] 30603.155

[GRAPHIC] [TIFF OMITTED] 30603.156

[GRAPHIC] [TIFF OMITTED] 30603.157

[GRAPHIC] [TIFF OMITTED] 30603.158

[GRAPHIC] [TIFF OMITTED] 30603.159

[GRAPHIC] [TIFF OMITTED] 30603.160

[GRAPHIC] [TIFF OMITTED] 30603.161

[GRAPHIC] [TIFF OMITTED] 30603.162

[GRAPHIC] [TIFF OMITTED] 30603.163

[GRAPHIC] [TIFF OMITTED] 30603.164

[GRAPHIC] [TIFF OMITTED] 30603.165

[GRAPHIC] [TIFF OMITTED] 30603.166

[GRAPHIC] [TIFF OMITTED] 30603.167

[GRAPHIC] [TIFF OMITTED] 30603.168

[GRAPHIC] [TIFF OMITTED] 30603.169

[GRAPHIC] [TIFF OMITTED] 30603.170

[GRAPHIC] [TIFF OMITTED] 30603.171

[GRAPHIC] [TIFF OMITTED] 30603.172

[GRAPHIC] [TIFF OMITTED] 30603.173

[GRAPHIC] [TIFF OMITTED] 30603.174

[GRAPHIC] [TIFF OMITTED] 30603.175

[GRAPHIC] [TIFF OMITTED] 30603.176

[GRAPHIC] [TIFF OMITTED] 30603.177

[GRAPHIC] [TIFF OMITTED] 30603.178

[GRAPHIC] [TIFF OMITTED] 30603.179

[GRAPHIC] [TIFF OMITTED] 30603.180

[GRAPHIC] [TIFF OMITTED] 30603.181

[GRAPHIC] [TIFF OMITTED] 30603.182

[GRAPHIC] [TIFF OMITTED] 30603.183

[GRAPHIC] [TIFF OMITTED] 30603.184

[GRAPHIC] [TIFF OMITTED] 30603.185

[GRAPHIC] [TIFF OMITTED] 30603.186

[GRAPHIC] [TIFF OMITTED] 30603.187

[GRAPHIC] [TIFF OMITTED] 30603.188

[GRAPHIC] [TIFF OMITTED] 30603.189

[GRAPHIC] [TIFF OMITTED] 30603.190

[GRAPHIC] [TIFF OMITTED] 30603.191

[GRAPHIC] [TIFF OMITTED] 30603.192

[GRAPHIC] [TIFF OMITTED] 30603.193

[GRAPHIC] [TIFF OMITTED] 30603.194

[GRAPHIC] [TIFF OMITTED] 30603.195

[GRAPHIC] [TIFF OMITTED] 30603.196

[GRAPHIC] [TIFF OMITTED] 30603.197

[GRAPHIC] [TIFF OMITTED] 30603.198

[GRAPHIC] [TIFF OMITTED] 30603.199

[GRAPHIC] [TIFF OMITTED] 30603.200

[GRAPHIC] [TIFF OMITTED] 30603.201

[GRAPHIC] [TIFF OMITTED] 30603.202

[GRAPHIC] [TIFF OMITTED] 30603.203

[GRAPHIC] [TIFF OMITTED] 30603.204

[GRAPHIC] [TIFF OMITTED] 30603.205

[GRAPHIC] [TIFF OMITTED] 30603.206

[GRAPHIC] [TIFF OMITTED] 30603.207

[GRAPHIC] [TIFF OMITTED] 30603.208

[GRAPHIC] [TIFF OMITTED] 30603.209

[GRAPHIC] [TIFF OMITTED] 30603.210

[GRAPHIC] [TIFF OMITTED] 30603.211

[GRAPHIC] [TIFF OMITTED] 30603.212

[GRAPHIC] [TIFF OMITTED] 30603.213

                                 <all>

</pre></body></html>
